SEP 28 2000


MEMORANDUM FOR:                 RAYMOND L. BRAMUCCI
                                Assistant Secretary for
                                 Employment and Training

                                      /S/
FROM:                           JOHN J. GETEK
                                Assistant Inspector General
                                  for Audit


SUBJECT:                        New York State Department of Labor
                                Job Training Partnership Act Title III Expenditures
                                For the Period April 1 through June 30, 1999
                                Final Audit Report No. 02-00-214-03-340


The attached final report is submitted for your resolution action. We request a response to this report
within 60 days. You are responsible for transmitting a copy of this report to New York State
Department of Labor officials for resolution. However, we are providing a courtesy copy directly to
them. If you have any questions concerning this report, please contact
Richard H. Brooks, Regional Inspector General for Audit at (212) 337-2566.


Attachment


cc: Mr. James J. McGowan, Commissioner, NYSDOL
    Marilyn K. Shea, New York ETA
      New York State
    Department of Labor

Job Training Partnership Act
   Title III Expenditures
   April 1 to June 30, 1999




                    Report No.: 02-00-214-03-340
                    Issued      SEP 28 2000
                                      TABLE OF CONTENTS


                                                                                                                                 PAGE

ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION

          BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          AUDIT OBJECTIVE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          AUDIT SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS AND RECOMMENDATIONS:

          I. PY 1998 FOURTH QUARTER EXPENDITURES . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          II. OTHER MATTERS - ALLOCATION OF LEX SYSTEM . . . . . . . . . . . . . . . . . . . . . 12


SCHEDULE:

          A - SUMMARY OF TITLE III OVERSTATED COSTS BY COST CENTER . . . . . . . . 14

APPENDIX:

          NEW YORK STATE DEPARTMENT OF LABOR
          RESPONSE TO DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                ACRONYMS

ASMB     Assistant Secretary for Management and Budget

ATDS     Automated Time Distribution System

CFR      Code of Federal Regulations

ETA      Employment and Training Administration

FSR      Financial Status Report

JTPA     Job Training Partnership Act

LEX      Labor Exchange System

NAFTA    North American Free Trade Agreement

NYSDOL   New York State Department of Labor

OIAS     Occupational Independent Analysis Section

PY       Program Year

USDOL    United States Department of Labor

WAFFR    Worker Adjustment Formula Financial Report

WIA      Workforce Investment Act




                           i
                            EXECUTIVE SUMMARY

At the request of the New York Regional Administrator, Employment and Training Administration
(ETA), we performed an audit of the New York State Department of Labor (NYSDOL) Job Training
Partnership Act (JTPA) Title III program expenditures covering the period April 1, 1999 through June
30, 1999. The audit objectives were to determine the reason for the large increase in program
expenditures during the last quarter of PY 1998, and if these costs were allowable.

NYSDOL was awarded $35,511,680 for PY 1998 under JTPA Title III, Governor’s Reserve funding
after the 2 percent Workforce Investment Act (WIA) set aside. For the three quarters ending March
31, 1999, NYSDOL reported expenses of $7,526,048. Expenditures significantly rose in the fourth
quarter of PY 1998 by $15,776,284 and expenditures were $23,302,332 for the year ended June 30,
1999.

                              NYSDOL transferred expenses from various cost centers to the JTPA
AUDIT FINDINGS                Title III program to avoid recapture of PY 1998 allotments. As a result,
                              expenditures reported on the Title III Worker Adjustment Formula
                              Financial Report (WAFFR) for the year ended June 30, 1999, were
overstated by $6,102,478.

       •      Personnel services were overstated by $5,023,129. Adjusting entries were made to
              transfer personnel service costs from other cost centers to the JTPA Title III program.
              NYSDOL officials did not have adequate documentation1 to support adjusting entries
              and stated that costs were transferred to increase JTPA Title III expenditures, and avoid
              recapture and reallotment procedures.

       •      Expenditures for the Labor Exchange (LEX) system were overstated by $1,079,349.
              NYSDOL allocated the preponderance of LEX system costs to the JTPA Title III
              program before June 30, 1999. Officials explained that the up-front charging of costs
              was to increase JTPA Title III expenditures to meet the 80 percent spending
              requirement.

Also, the allocation of LEX system costs was based on program funding levels and not on usage.
Therefore, NYSDOL may not be assigning a fair share of LEX system costs to programs relative to
benefits received.




       1
               Documentation should be based on time distribution systems or alternative methods, such as
               random moment sampling, case counts or other quantifiable measures of employee effort approved
               by the Federal cognizant agency.

                                                   -1-
Subsequent to reporting PY 1998 Title III expenditures, ETA issued guidance on recapture and
reallotment provisions for PYs 1998 and 1999. This guidance indicated that ETA would not implement
the applicable recapture provisions which would otherwise be expected to take place for failure to
expend at least 80 percent of Title III funds. Funds remaining in excess of JTPA closeout may be
carried forward into WIA. However, Title III expenditures must be reported in accordance with cost
principles.


                                   We recommend that the Assistant Secretary for Employment and
RECOMMENDATIONS                    Training ensure that NYSDOL reduce June 30, 1999, reported
                                   JTPA Title III expenditures by $6,102,478 for personnel service and
                                   LEX system costs, and begin recapture and reallotment procedures if
required. We also recommend that the Assistant Secretary require NYSDOL to allocate personnel
service costs to appropriate programs based upon after-the-fact distribution of actual activity of each
employee, and develop a basis for cost distribution of the LEX system based upon relative benefits
received.

NYSDOL underreported costs of six other cost centers (see Schedule A). The grant officer may
determine whether underreported costs are allowable provided that revised Financial Status Reports
are submitted by NYSDOL to the United States Department of Labor (USDOL), and there are
sufficient funds available in each grant under which costs were incurred.

NYSDOL Response

NYSDOL responded to our draft report on August 15, 2000. NYSDOL disagreed with the findings
and recommended reduction of $6,102,478 as presented in the draft report. In its response,
NYSDOL stated it has provided documentation to support both the personnel service and LEX system
adjusting entries. Moreover, NYSDOL disagreed that adjustments were made to avoid recapture and
reallotment procedures, and stated:

       . . . The reason for the significant increase in expenditures during the fourth quarter was
       due to retroactive Time Distribution adjustments for allowable staff charges and non-
       personnel service adjustments for Labor Exchange (LEX) system costs, both representing
       costs associated with the New York State Department of Labor’s One-Stop System. As
       explained to your staff, it is important to note that under the New York State Labor Law,
       Article 24, Worker Adjustment Act (WAA), the Department is authorized to reapportion
       JTPA dollars after March 31st; therefore, the Department was not able to process any
       adjustments or retroactive transfers until April 1, 1999.

OIG Comment

We have not taken exception to the New York State Labor Law or the timing of adjusting entries.
However, on three separate occasions, including the entrance conference held on

                                                 -2-
February 14, 2000, signaling the beginning of the audit, NYSDOL representatives stated that costs
were transferred to the Title III program to avoid losing program funds.

While a portion of personnel service and the LEX system costs may be allocable to the JTPA Title III
program, it is NYSDOL’s responsibility to adequately document that costs were allocated to a
particular cost category to the extent that benefits were received. The transfer of costs from one grant
to another should be made consistently among all programs and should not be done for one grant to
overcome fund deficiencies, or to avoid restrictions imposed by law or terms of an award.

NYSDOL’s response to the draft report has been incorporated in the report with our comments. It is
also included in its entirety as an Appendix.




                                                  -3-
                                INTRODUCTION

                             The JTPA Title III program was designed to meet the employment
 BACKGROUND                  and retraining needs of dislocated workers. Funds allotted under Title
                             III provide for rapid response assistance; basic readjustment and
                             support services; retraining; needs related payments and coordination
with the unemployment compensation system.

NYSDOL was awarded $35,511,680 for PY 1998 under JTPA Title III, Governor’s Reserve funding
after the 2 percent WIA set aside. For the three quarters ending March 31, 1999, NYSDOL reported
costs of $7,526,048. Expenditures significantly rose in the fourth quarter of PY 1998 by $15,776,284
and expenditures were $23,302,332 for the year ended June 30, 1999.

JTPA legislation states that funds obligated for any program year may be expended by each recipient
during that program year and the two succeeding program years. Funds not expended as required, are
subject to recapture and reallotment. JTPA Title III Sec. 303(b) states:

       The amount available for reallotment is equal to –

       (1)    the amount by which the unexpended balance of the State allotment at the end
              of the program year prior to the program year for which the determination
              under this section is made exceeds 20 percent of such allotment for that prior
              program year; plus

       (2)    the unexpended balance of the State allotment from any program year prior to
              the program year in which there is such excess.

                                      The audit objectives were to determine the reason for the large
AUDIT OBJECTIVE                       increase in program expenditures during the last quarter of PY
                                      1998, and if these costs were allowable.


                                      We audited $15,776,284 of the costs claimed for the period
AUDIT SCOPE AND                       April 1, 1999 through June 30, 1999. We focused on costs of
METHODOLOGY                           $9.3 million in Basic Readjustment Services claimed during the
                                      period.

In performing the audit, we conducted interviews with officials from ETA - New York Region,
NYSDOL, and a judgmental sample of managers and employees whose time and fringe benefit costs
were transferred from other cost centers to the Title III program. Also, a judgmental sample of
invoices pertaining to the LEX system were examined. We reviewed and analyzed information, and

                                                -4-
supporting detail for selected journal entries where costs were transferred. We did not review
NYSDOL’s internal controls over financial reporting.

We judgmentally selected and interviewed managers and employees from cost centers of New York
City, Hudson Valley and Workforce Development from the seven regions where personnel service
costs were transferred. We also judgmentally selected and interviewed employment counselors and
labor service representatives, whose labor charges were transferred.

The audit was performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. We conducted fieldwork from February 14, 2000 to
March 24, 2000. A fieldwork exit briefing was conducted with NYSDOL officials on April 6, 2000.




                                                 -5-
           FINDINGS AND RECOMMENDATIONS

I. PY 1998 FOURTH QUARTER EXPENDITURES

NYSDOL transferred costs from various cost centers to the JTPA Title III program in the fourth
quarter of PY 1998 to avoid recapture of PY 1998 funds. To avoid recapture, NYSDOL increased
Title III expenditures by:

       •     transferring $5 million of personnel service costs from other cost centers to the JTPA Title
             III program; and

       •     charging LEX system costs of $1 million to the JTPA Title III program, which should
             have been shared by other programs.

During fieldwork, NYSDOL officials stated that adjusting entries were made to get closer to spending
80 percent of the PY 1998 grant amount and to reduce the amount of grant funds subject to recapture
and reallotment. As a result, expenses reported on the WAFFR for the year ended June 30, 1999,
were overstated by $6,102,478. 20 CFR Parts 627.435 (a) and (c) state:

        (a) General . . . Costs charged to the program shall be accorded
            consistent treatment through application of generally accepted
            accounting principles appropriate to the JTPA program, as
            determined by the Governor.

        (c) Costs allocable to another Federal grant, JTPA program, or cost
            category may not be shifted to a JTPA grant, subgrant, program, or
            cost category to overcome fund deficiencies, avoid restrictions
            imposed by law or grant agreements, or for other reasons.

Subsequent to reporting PY 1998 Title III expenditures, ETA issued guidance on recapture and
reallotment provisions for PYs 1998 and 1999. This guidance indicated that ETA would not implement
the applicable recapture provisions which would otherwise be expected to take place for failure to
expend at least 80 percent of Title III funds. Funds remaining in excess of JTPA closeout may be
carried forward into WIA. However, Title III expenditures must be reported in accordance with cost
principles.




                                                 -6-
                                          NYSDOL transferred $5,023,129 of personnel service costs
 Transfer of $5 million in
                                          from other DOL programs to JTPA Title III in June 1999, as
 Personnel Service Costs
                                          follows:



                                                                 AMOUNT
                              PROGRAM                          TRANSFERRED
               Wagner-Peyser                                            $4,046,877

               JTPA Title II General Administration                        413,215

               Unemployment Insurance                                      425,210

               NAFTA Training                                              111,473
               OIAS (ES)                                                    18,385

               Reemployment Services                                         7,969

                                  Total                                 $5,023,129

NYSDOL officials did not have adequate documentation2 to support the above adjustments and stated
that costs were transferred to increase JTPA Title III expenditures, to avoid recapture and reallotment
procedures. As a result, JTPA Title III expenses were overstated by $5,023,129.
20 CFR Part 627.440(e)(1) states:

        Personnel and related non-personnel costs of the recipient’s or subrecipient’s
        staff, including project directors, who perform services or activities that benefit
        two or more of the cost objectives/categories identified in this section may be
        allocated to the benefitting cost objectives/categories based on documented
        distributions of actual time worked or other equitable cost allocation methods.
        [Underscoring Provided.]

NYSDOL officials stated that retroactively transferring staff time previously charged to other activities
was allowable since costs could have been charged to either the Wagner-Peyser program or the Title
III program. The Wagner-Peyser program serves all job seekers including those who were “profiled”
as UI claimants and eligible for Title III. NYSDOL asserted that as a result Wagner-Peyser staff can
allocate a portion of their time to Wagner-Peyser or JTPA Title III programs. Furthermore, NYSDOL
provided statistics to show that the adjusted time distribution represented approximately 12.3 percent



        2
                Documentation should be based on time distribution systems or alternative methods, such as
                random moment sampling, case counts or other quantifiable measures of employee effort approved
                by the Federal cognizant agency.

                                                    -7-
of total Wagner-Peyser positions who were transferred to Title III, while the number of dislocated
workers served during the same year represented 15.7 percent of total individuals served.

The original allocation of personnel service costs during the program year was based on predetermined
percentages determined by management. The allocation percentages were confirmed by employees
and certified by management at the end of each pay period.3 We interviewed employment counselors,
labor service representatives and managers whose labor costs were transferred. Employees were not
aware that their time allocation had been adjusted. Furthermore, employees were not able to
retroactively estimate time spent on each program. However, they confirmed providing assistance to
dislocated workers as part of their duties.

Although NYSDOL’s statistics demonstrate the percentage of dislocated workers served, they do not
support the amount of employee time spent serving the dislocated worker population. Each
employee’s original time allocation and management’s subsequent certification at the end of each pay
period is a better reflection of time spent serving dislocated workers than year end adjusting entries.
Furthermore, 20 CFR Parts 627.435 (a) and (c) provide for the consistent treatment of costs and not
the assignment of costs to a particular cost category to overcome fund deficiencies, or to avoid
restrictions imposed by law or terms of the award.

NYSDOL Response

         . . . we provided a narrative to the auditors justifying the amount of employee time spent
         serving the dislocated worker population which specifically justified our Time
         Distribution adjustment stating, “the dislocated worker population is harder to serve.
         They generally require a greater amount of time/service than the general population.”
         Attached to this narrative was a chart comparing the dislocated workers served to staff
         time charged where we clearly illustrate that the staff hours spent serving the dislocated
         worker population were significantly more than the Time Distribution amounts we
         adjusted for. Based on the joint funding language provided in the Wagner/Peyser and
         JTPA legislation, we made a business decision to transfer only a portion of the allowable
         dislocated worker expenditures to JTPA. . . .

         OMB Circular A-87, Attachment A, paragraph C.3.c, provides the flexibility to transfer
         costs and make necessary business decisions regarding the funds available to NYSDOL.
         A-87 reads as follows: "Any cost allocable to a particular Federal award or cost
         objective under the principles provided for in this Circular may not be charged to other
         Federal awards to overcome fund deficiencies, to avoid restrictions imposed by law or
         terms of the Federal awards, or for other reasons. However, this prohibition would not
         preclude governmental units from shifting, costs that are allowable under two or more


         3
            At the end of each pay period the system prompts employees to confirm their time distribution.
Generally, employees confirm the predetermined allocation of time. Therefore, time is allocated based on
management’s original estimates and not on the actual time each employee spends performing a function.

                                                       -8-
        awards in accordance with existing program agreements. {sic}4 [Emphasis added.] A
        function or activity within the government organization that benefits two or more
        programs may be set up as a single cost objective. Costs allocable to that cost objective
        would be allowable under any of the involved programs costs. The government can
        make a business decision regarding- what combination of funds made available under
        these programs would be applied to this cost objective.” {sic}5 [Emphasis added.]
        Based on these cost principles, NYSDOL made a business decision regarding our One-
        Stop system expenditures that a portion of our DOL staff costs which are allowable
        activities and costs under both JTPA and Wagner/Peyser serving JTPA participants by
        providing BRS services would be charged to both programs in accordance with the
        flexibility granted under OMB Circular A-87. . . .

OIG Comment

The argument that the dislocated worker population is harder to serve does not justify the retroactive
transfer of payroll costs to Title III. NYSDOL’s adjustment to Title III was neither made in
accordance with OMB requirements nor consistent with NYSDOL’s time distribution system which
was established with the intention to ensure accurate accountability of funds.

At the exit briefing, we requested that NYSDOL prepare statistics to show the percentage of Wagner-
Peyser positions transferred to Title III and the percentage of dislocated workers served. The intent of
this request was to merely establish that there was a relationship to the amount transferred to Title III.
It was not meant as a substitute for time distribution or alternative systems sanctioned by OMB. Again,
the number of individuals served does not directly relate to the hours spent by staff on each individual.
We interviewed employment counselors, labor service representatives and managers whose labor costs
were transferred. These employees were not able to retroactively estimate time spent on each
program.

NYSDOL argued that dislocated workers required a greater amount of staff hours and service than the
general population. This statement is difficult to justify in the absence of verifiable statistics. One could
also argue that the dislocated worker would require less service than the general population, given the
talent and previous employment history of the dislocated workers.

NYSDOL cites OMB Circular A-87 and Assistant Secretary for Management and Budget (ASMB)
C-10, Implementation Guide for OMB Circular A-87 which allows management flexibility for funding
programs. However, the flexibility cited by NYSDOL does not supersede OMB Circular A-87,



        4
            The quotation from OMB Circular A-87 should have closed here. The remaining comments were
extracted from ASMB C-10, Implementation Guide for OMB Circular A-87 published by the U.S. Department of
Health and Human Services.

        5
            The extraction from ASMB C-10 should have closed here. Refer to footnote No. 2

                                                      -9-
Attachment B,11. h, (4) and (6) which mandates time distribution standards in support of salaries and
wages when there are multiple activities or cost objectives:

       4. Where employees work on multiple activities or cost objectives, a distribution of
       their salaries or wages will be supported by personnel activity reports or equivalent
       documentation which meets the standards in subsection (5) unless a statistical
       sampling system (see subsection (6)) or other substitute system has been approved by
       the cognizant Federal agency. . . . [Underscoring provided.]

       6. Substitute systems for allocating salaries and wages to Federal awards may be used
       in place activity reports. These systems are subject to approval if required by the
       cognizant agency. Such systems may included, but are not limited to, random moment
       sampling, case counts, or other quantifiable measure of employee effort. . . .

NYSDOL’s retroactive adjustment, does not comply with OMB requirements and is also inconsistent
with NYSDOL’s time distribution which was established to ensure accurate accountability of funds.
The manual for NYSDOL’s Automated Time Distribution System (ATDS) states:

       . . . With ATDS, we can now be assured that all monthly financial reports for New
       York State Department of Labor are based on the most accurate time distribution
       data. . . . ATDS also gives the employee and supervisor the ability to edit the time
       distribution charges daily if the actual time worked by an employee deviates in any
       way from the codes assigned to their item number. . . . We replaced our manual
       procedure, now obsolete, with a computerized on-line system which ensures the most
       accurate accountability of departmental funds . [Underscoring provided.]


                                          Generally, NYSDOL allocated the preponderance of LEX
  JTPA Title III LEX System Costs         system costs to the JTPA Title III program before June
  Overstated By $1 Million                30, 1999. Officials explained that the up-front charging of
                                          incurred costs was to increase JTPA Title III expenditures
                                          to meet the 80 percent spending requirement. As a result,
JTPA Title III program expenditures were overstated by $1,079,349 as of June 30, 1999.

We judgmentally selected four purchase orders for $2,954,574 allocated to the JTPA Title III program
for testing. While NYSDOL determined that 39 percent was JTPA Title III program’s fair share of
LEX system costs, this was not how costs for three of the four purchase orders were allocated.




                                                -10-
                           Total          JTPA Title III          JTPA Title II          Wagner-Peyser

 PO Numbers              Allocated       Amount            %    Amount        %          Amount       %

 1054                     $1,118,240        $999,637   89.40       $31,357        2.80     $87,246     7.80

 1054/5                      837,279         770,171   91.98        24,159        2.89      42,949     5.13

 1058                      1,999,514         852,003   42.61       413,104    20.66        734,407    36.73

 6931                        853,238         332,763   39.00       187,712    22.00        332,763    39.00

 Total                    $4,808,271      $2,954,574   61.40      $656,332    13.70      $1,197,365   24.90

 Allocation Based on      $4,808,271      $1,875,225   39.00     $1,057,821   22.00      $1,875,225   39.00
 NYSDOL Formula

 Difference                               $1,079,349             ($401,489)              ($677,860)

NYSDOL explained that the up-front charging of costs to Title III was done in order to meet the 80
percent spending requirement for the JTPA Title III program and that subsequent costs were primarily
allocated to other programs. Ultimately, each program’s share of the total LEX system expenses was
in accordance with NYSDOL’s allocation percentages when all expenses were incurred.

However, cost principles require consistent treatment. NYSDOL allocated each LEX system invoice
prior to June 30, 1999, to fulfill spending requirement for Title III. As a result, invoices prior to June
30, 1999, were not allocated consistently and fairly, and the JTPA Title III WAFFR for the year ending
June 30, 1999, was overstated by $1,079,349.

NYSDOL Response

          We discussed our accounting methodology with your audit staff and note that your report
          also states, “Ultimately, each program’s share of the total LEX system expenses was in
          accordance with NYSDOL’s allocation percentages when all expenses were incurred.”
          Our accounting methodology was consistent with the percentages established with the
          historical spending of our programs. Recent federal guidelines provided grantees bottom
          line authority, allowing for resources to share in the cost of operating a One-Stop as long
          as the percentage contributed by the individual funding source equals the benefit
          received. This methodology is outlined in the Federal Register on Resource Sharing. Our
          methods were consistent with these resource sharing agreements and cost allocation
          guidelines.

          . . .we used historical spending to determine our projected benefit received and therefore
          we allocated the LEX costs as we have historically spent in the ratio of 39 percent
          (Wagner/Peyser), 39 percent (JTPA TIII), 22 percent(JTPA TIIA). . . .

OIG Comment

Again, NYSDOL allocated the preponderance of LEX system costs to the JTPA Title III program
before June 30, 1999, and has not applied these percentages consistently to record LEX system costs.


                                                  -11-
                                  We recommend that the Assistant Secretary for Employment and
  Recommendations                 Training ensure that NYSDOL reduce June 30, 1999, reported
                                  JTPA Title III expenditures by $6,102,478 for personnel service
                                  and LEX system costs, and, if required begin recapture and
reallotment procedures. We also recommend that the Assistant Secretary require NYSDOL to:

        •     allocate personnel service costs to appropriate programs based upon after-the-fact
              distribution of actual activity of each employee;

        •     allocate costs of the LEX system on a consistent basis; and

        •     submit revised financial reports for underreported costs on the other grants.

II. OTHER MATTERS - ALLOCATION OF LEX SYSTEM

NYSDOL allocated $13.6 million of LEX system costs to programs based on funding levels and not on
projected usage. Therefore, NYSDOL may not be assigning a fair share of LEX system costs to
programs relative to benefits received. OMB Circular A-87, Attachment A, C.3(a) and 20 CFR Part
627.440(a) require that costs are allocable to a particular cost category to the extent that benefits are
received by such category.

Guidance is provided by the Department of Health and Human Services Cost Principles and
Procedures for Developing Cost Allocation Plans and Indirect Cost Rates for Agreements with
the Federal Government, Section 4.6.2 which states the suggested basis for cost distribution of data
processing is system usage.

NYSDOL budgeted 39 percent of the equipment and installation costs associated with the LEX system
to the JTPA Title III and Wagner-Peyser programs, and 22 percent to the JTPA Title II program.
These allocation percentages were based on individual funding levels for activities related to One-Stop
centers and not based on actual usage.

Costs for the LEX system consisted of new equipment, network development and PCs. Software and
hardware purchased included personal computers, hubs, servers, routers, cabling, and site preparation.
The purpose of the LEX system is to serve a diverse customer base including JTPA Title III program
participants. According to NYSDOL purchased equipment was sent to local employment services
offices. The system will feature a job bank for applicants to search for jobs and a talent bank for
employers to search for job applicants.

During fieldwork, NYSDOL officials stated that funding levels were used as an allocation basis because
the LEX system was in development and usage information was not available. Though we agree that
actual usage information may not be available, using funding levels as an allocation basis is not an
acceptable method of distributing costs. NYSDOL should look into developing other methods such as
prior actual or projected usage to better align the cost with the benefit received.


                                                 -12-
                                    We recommend that the Assistant Secretary for Employment and
  Recommendation                    Training require NYSDOL to develop a basis for cost distribution
                                    of the LEX system based upon relative benefits received.

NYSDOL Response

        . . . We disagree with your statement that we used funding as a basis for our cost
        allocation. We have clearly demonstrated that we used historical spending to determine
        our projected benefit received and therefore we allocated the LEX costs as we have
        historically spent in the ratio of 39 percent (Wagner/Peyser), 39 percent (JTPA TIII), 22
        percent (JTPA TIIA), which we provided in a memo to the ETA auditors. Therefore, we
        reiterate that the basis of our allocations was historical spending and not funding.”

OIG Comment

NYSDOL did not provide documentation either during fieldwork or in its response to support that
historical spending was utilized as the basis for cost allocation. The schedules provided to us during
fieldwork show that funding was used to calculate the allocation bases. Regardless, allocating LEX
system costs by funding or spending level does not meet the criteria in 20 CFR Part 631.13(a)(2)
requiring costs be allocated to a particular cost category to the extent that benefits are received.




                                                  -13-
                                                                     SCHEDULE A


                 NEW YORK STATE DEPARTMENT OF LABOR
                       JTPA TITLE III EXPENDITURES
                    FOR THE PERIOD APRIL TO JUNE 1999
           SUMMARY OF TITLE III OVERSTATED COSTS BY COST CENTER




                                       PERSONNEL          LEX
COST CENTER                             SERVICES        SYSTEM          TOTAL
Wagner-Peyser                            $4,046,877      $401,489      $4,448,366

JTPA Title II General Administration          413,215     677,860       1,091,075

Unemployment Insurance                        425,210            0       425,210

NAFTA Training                                111,473            0       111,473

OIAS (ES)                                      18,385            0        18,385

Reemployment Services                           7,969            0          7,969
                 Total                   $5,023,129     $1,079,349     $6,102,478




                                       -14-
